GR-40-98-016
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Justice Programs
Grant to Test the Efficacy of Court-Mandated Counseling for Domestic
Violence Offenders
Florida Atlantic University
Grant No. 97-WT-NX-0008
GR-40-98-016
July 1998
 
 EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grant
number 97-WT-NX-0008, awarded by the U.S. Department of Justice, Office of Justice
Programs (OJP) to the Florida Atlantic University (grantee). The grantee received a grant
of $134,867 to test the efficacy of court-mandated counseling for domestic violence
offenders. The grant project period was January 1, 1997 through 
December 31, 1998. The overall purpose of the grant is to combat violence against
women.
In brief, our audit determined the grantee:


- Charged unallowable costs of $2,053 to the grant. Specifically, the unallowable costs
    were for duplicate payments, meals, supplies, and travel expenses.
- Did not accurately report to OJP the total outlays and Federal share of outlays on
    the Financial Status Reports.
- Did not adequately track its local share of costs for the grant.
#####